 AUDIT OF THE MANAGEMENT OF 

FEDERAL PRISON INDUSTRIES AND 

   EFFORTS TO CREATE WORK 

  OPPORTUNITIES FOR FEDERAL 

           INMATES 


       U.S. Department of Justice 

     Office of the Inspector General 

              Audit Division 


           Audit Report 13-35 

            September 2013 

       AUDIT OF THE MANAGEMENT OF FEDERAL PRISON 

         INDUSTRIES AND EFFORTS TO CREATE WORK 

           OPPORTUNITIES FOR FEDERAL INMATES 


                                  EXECUTIVE SUMMARY 


       Federal Prison Industries, Inc. (FPI) is a wholly owned government
corporation and inmate reentry program operated within the Federal Bureau
of Prisons ( BOP) under the trade name "UNICOR. " FPI's mission is to
employ and provide job skills training to the greatest practicable number of
inmates confined within the BOP; contribute to the safety and security of
federal correctional facilities by keeping inmates constructively occupied;
produce market-quality products and services; operate in a self-sustaining
manner; and minimize FPI's impact on private business and labor. In fiscal
year (FY) 2011, FPI had $745 million in total sales, mostly to the federal
government. 1 The u.s. Department of Defense is FPI/s largest customer,
accounting for $357 million in sales, or 48 percent of total sales, in FY 2011.
As shown in Exhibit 1, FPI's six business groups offer several products and
services for sale.

                         Ex   I   It   1: FPI Business Group Pro d ucts
     BUSINESS GROUP           PRODUCT EXAMPLES
     CLOTHING &               Military apparel , body armor, household items, screen-
     TEXTI LES                printing , embroidery services
     ELECTRO NICS             Braidi ng and circuit board assemblies, cable assemblies,
                              solar e nergy, commu nicatio ns
     OFFICE FURNITURE         Chairs and seating , desks , tables, fili ng/ storage,
                              accessories soecialtv items
     IN DUSTRIAL P RODUCTS    Fleet management, prototyping and customization services,
     & FLEET SOLUTIONS        storaQe, fe ncinQ, optics and eyewear
     RE CYC LI NG             Electronic equipment recycli ng
     SERVI CES                Call centers, pri nti ng, bindery, data and document
                              co nversion
   Source. FPI

       Because FPI does not receive direct taxpayer funding, it must generate
operating revenue to remain a self-sustaining program. However, FPI has
struggled financially in recent years, reporting average net losses of
$31 million annually from FYs 2009 through 2012 on average net sales of
$753 million. FPI's employment figures have also dropped in recent years;
as of June 2012, FPI employed 12,394 inmates, or 7 percent of the eligible

        1 FPI's FY 2011 tota l sa les of $745 million was comprised of $681 mill ion to federal

age ncies and $ 64 million in sales to the pri vate sector as a result of subco ntracti ng,
recycling activ ities, and commercial services.
inmate population, its lowest inmate employment in over 25 years and far
below its historical target of 25 percent of the eligible BOP inmate
population.

      The OIG conducted this audit to determine what factors have led to
the significant reduction of inmate work within FPI, and FPI’s plans to
maintain and create work opportunities for inmates. This audit covers FPI
operations from FY 2001 through August 2012.

Results in Brief

        We found that FPI’s reduction in inmate employment is primarily the
result of efforts to compensate for declining revenues and earnings. FPI
officials told us that a combination of factors had contributed to its recent
financial struggles. Among these are changes to the legal and policy
framework in which FPI’s businesses operate that were designed to reduce
FPI’s impact on the private sector, such as new procurement requirements
that lessen the impact of FPI’s mandatory source authority and new market
share thresholds for certain FPI product lines. The officials also cited the
winding down of the wars in Iraq and Afghanistan, the U.S. economic
downturn during the late 2000s, and substantial financial losses in key
product lines as having contributed to the declining overall financial results.
To compensate, FPI implemented factory restructuring initiatives in FYs 2009
through 2012 in an attempt to offset ongoing losses, reduce excess
production capacity, and reduce staffing as necessary. These cost-reduction
initiatives contributed to the loss of approximately 6,500 inmate jobs, or
approximately one-third of FPI’s total FY 2009 inmate workforce.

      While FPI’s ability to regain past levels of inmate employment depends
primarily on its future business success, FPI has also taken measures to
increase inmate employment with existing resources and with the least
impact on factory costs. Specifically, FPI implemented an inmate
job-sharing initiative intended to employ two inmates on a half-time basis
instead of one full-time inmate, thereby introducing more inmates to FPI.
However, we were unable to gauge FPI’s job-sharing progress over the past
2 years due to a lack of reliable data, as FPI headquarters initially did not
provide clear instructions to factory management on how to capture and
track the results. Even after clarifying, the resulting performance metric
used to measure job-sharing progress produced imprecise results.
Furthermore, FPI had not maintained organizational job-sharing targets that
would allow it to track progress towards achieving its job-sharing goal, nor
had it continually incentivized the achievement of job-sharing success by, for
example, incorporating targets and rating criteria into management
performance work plans.


                                      ii
       Our audit also found that as of June 2012, FPI employed 37 inmates
who were under a final order of deportation and therefore appeared to be
ineligible for FPI employment under federal regulations. We found that FPI’s
internal controls did not ensure that aliens who were ordered deported were
removed from FPI employment as required. According to FPI officials, as of
June 2012, these 37 non-U.S. citizen inmates represented 2 percent of FPI’s
1,580 non-citizen inmate employees and less than 1 percent of FPI’s 12,394
total inmate employees. FPI officials informed us that once the OIG brought
this issue to their attention, they immediately removed 35 of the 37
deportable inmates from FPI employment. Of the remaining two inmates,
one claimed he had been misidentified, and one had already ceased working
at FPI.

      Our report contains detailed information on the full results of our
audit, as well as four recommendations to assist FPI in its efforts to maintain
and create work opportunities for inmates.




                                      iii
This page intentionally left blank.
	
      AUDIT OF THE MANAGEMENT OF FEDERAL PRISON 

        INDUSTRIES AND EFFORTS TO CREATE WORK 

          OPPORTUNITIES FOR FEDERAL INMATES 


                               TABLE OF CONTENTS


                                                                                              Page

INTRODUCTION ............................................................................... 1
 
     Background................................................................................. 1
 

        Organizational Structure ............................................................ 2
 
        Product and Service Offerings ..................................................... 3
 
        Inmate Employment.................................................................. 4
 
        FPI Financial Condition .............................................................. 5
 
     OIG Audit Approach ..................................................................... 6
 

FINDING AND RECOMMENDATIONS ................................................ 7
 
DECLINE OF INMATE WORK WITHIN FPI AND EFFORTS TO 

   MAINTAIN AND CREATE WORK OPPORTUNITIES FOR FEDERAL 

   INMATES ................................................................................... 7
 
     Decline in Inmate Employment ...................................................... 8
 

        Legislative Changes and Board of Directors Resolutions ................ 11
 
        Decline in War Efforts .............................................................. 14
 
        Financial Losses to Key Product Lines ........................................ 16
 
     FPI Efforts to Maintain and Create Work Opportunities for Federal 

           Inmates ........................................................................... 17
 

        Revenue-neutral Inmate Employment Initiatives ......................... 17
 
        Business Development Efforts................................................... 21
 
     Inmate Employment Goal ............................................................ 24
 

     Employment of Non-U.S. Citizens ................................................. 26
 

     Conclusion ................................................................................ 27
 

     Recommendations...................................................................... 27
 
STATEMENT ON INTERNAL CONTROLS........................................... 29
 
STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS ..... 30
 
APPENDIX I: OBJECTIVE, SCOPE, AND METHODOLOGY ................ 31
 
APPENDIX II: FEDERAL BUREAU OF PRISONS' RESPONSE TO THE 

   DRAFT REPORT........................................................................ 35
 
APPENDIX III: OFFICE OF THE INSPECTOR GENERAL 

   ANALYSIS AND SUMMARY OF ACTIONS NECESSARY
   TO CLOSE THE REPORT ............................................................ 38
 
                                 INTRODUCTION

      Federal Prison Industries, Inc. (FPI) is a wholly owned government
corporation operated within the Federal Bureau of Prisons (BOP) under the
trade name “UNICOR.” As of June 2012, FPI operated 83 factories staffed
by a federal inmate workforce located at federal correctional institutions
throughout the United States. FPI inmates produce a variety of products
and services, including office furniture; military apparel; communications
equipment; vehicle repair and retrofitting; cabinets, lockers and shelving;
electronics recycling; and call centers. FPI’s mission is to employ and
provide job skills training to the greatest practicable number of inmates
confined within the BOP; contribute to the safety and security of federal
correctional facilities by keeping inmates constructively occupied; provide
market-quality products and services; operate in a self-sustaining manner;
and minimize FPI’s impact on private business and labor.

      According to BOP Program Statement 8120.02, Work Programs for
Inmates – FPI, FPI was designed to allow inmates the opportunity to acquire
the knowledge, skills, and work habits that will be useful when released from
prison. An additional benefit of FPI is that wages earned by inmates may be
used to pay court ordered fines, child support, and restitution. In fiscal year
(FY) 2011, FPI reported that inmates contributed approximately $1.6 million
of their earnings to these financial obligations. In addition, BOP research
suggests that FPI has a positive effect on post release employment and
reduces recidivism.1

       As of June 2012, FPI employed 12,394 inmates, its lowest level of
employment since 1986. In contrast, the number of inmates in BOP facilities
that are eligible for FPI employment has more than quadrupled from 1986 to
2011. As a result, FPI is currently employing the smallest proportion of the
eligible federal inmate population in its more than 75-year history.

Background

       FPI was authorized by Congress and created by Executive Order 6917
in 1934 to provide a meaningful work program to inmates in federal penal
institutions. To minimize its impact on the private sector, Congress
authorized FPI to sell its products only to the federal government, and the
Executive Order establishing FPI required it to diversify its product offerings
so that no single private industry would bear a disproportionate burden of

       1
          William G. Saylor and Gerald G. Gaes, PREP: Training Inmates through Industrial
Work Participation, and Vocational and Apprenticeship Instruction, (U.S. Federal Bureau of
Prisons, September 24, 1996).


                                             1                                               

competition. FPI is governed by a Board of Directors, appointed by the
President, which is also responsible for balancing the competing interests of
operating prison factories while minimizing their impact on the private
sector.

Organizational Structure

      FPI is a component of the BOP’s Industries, Education, and Vocational
Training (IE&VT) Division. The Director of the BOP serves as FPI’s Chief
Executive Officer, and the Assistant Director of IE&VT serves as the
corporation’s Chief Operating Officer. The Senior Deputy Assistant Director
oversees the six business groups, which are each led by a General Manager.
See Exhibit 1 for FPI’s organizational chart.

      Exhibit 1: Federal Prison Industries Organizational Chart
                           As of July 2012




   Source: FPI




                                      2                                         

       In June 2012, FPI operated 83 factories in 65 prison facilities located
throughout the United States. Factories are managed and operated by a
Superintendent of Industries, Associate Warden, Operations Manager, or
other senior management official; and by civil service personnel who train
and supervise inmate employees and provide administrative support. At the
end of FY 2011, FPI employed approximately 1,300 full-time, civil service
staff.

      In accordance with 18 U.S.C. § 4121, FPI is administered by a six
member Board of Directors (Board) appointed by the President that
represents: (1) Agriculture, (2) Industry, (3) Labor, (4) Retailers and
Consumers, (5) the Secretary of Defense, and (6) the Attorney General.
The Board is required by 18 U.S.C. § 4122 to provide employment for the
greatest number of inmates in the U.S. penal and correctional institutions
who are eligible to work as is reasonably possible. The statute also requires
the Board to ensure that FPI diversifies its products so that no single private
industry bears an undue burden of competition from the products of the
prison workshops, and to reduce to a minimum competition with private
industry.

       The Board’s responsibilities also include deciding whether FPI will
produce a new product, significantly expand the production of an existing
product, or activate a new factory. Additionally, the Board reviews and
approves the policies and procedures of the corporation. Board meetings
are held throughout the year to discuss the status and financial health of the
corporation, changes in inmate population and employment, and any
legislative developments or issues.

Product and Service Offerings

      FPI offers several products and services for sale to the federal
government. FPI’s product and service offerings are organized into
six business groups, as detailed in Exhibit 2.




                                       3                                          

                   Ex    I   It   2: FPI Business Groups June 2012 2
                                                                                            No. OF
     BUSINESS                                                                No . OF       IN MATES
      G ROUP                         PRODUCT E XAM PLES                    FACTORIES       EM PLO YED
CLOTHING &           Mi litary apparel , body armo r, household                     31         4,600
TEXTILE S            ite ms, screen - print in Q, em broidery services
 ELECTRONICS         Bra iding and circuit boa rd asse m b lies, cable              10           886
                     assem blies, solar energy, com m unications
OFFICE FURNITURE     Chairs a nd seat ing, desks, t ab les,                         10         2,583
                     fili ne /sto race accessories soecialtv items
IN DUSTRIAL          Fleet ma nagement , prot otyping and                           13         1,596
PRO DUCTS &          cust om ization services, storage, fencing ,
FLEET SOLUTIONS      opt ics and evewear
 RE CYCLI NG         Electron ic equipm ent recycl ing 3                             7         1,145
SERVICES             Call centers, pr inting, bin dery, data and                    12         1,465
                     docu m ent conversion
                                               BUSINESS G ROUP T OTAL               83       12, 275
                                               CENTRAL OFFICE SUPPORT                  0         119
                                                             FPI T OTAL             83       12, 394
Source: FPI

Inmate Employment

      Althoug h FPI operates in a business environment, it is primaril y a
correctional program to prepare inmates for re lease by helpi ng t hem acq u ire
job skil ls and to reduce undesirab le id le time during incarceration. All
sentenced federal in mates are req uired to work in some capacity, but not al l
inmates are employed by FPI.

      FPI j obs are in high demand because they offer hig her wages than
other inst itut iona l work assign ments, ra nging from $0 .23 to $ 1.1 5 per hour
dependi ng on an inmate's ski lls, q ualifications, leng t h of employment, and
work performance. Inmates vol untari ly apply for employment with FPI an d
are placed on wait ing lists in the order the ir applica ti ons are rece ived . As of
March 20 10, FPI had 26,335 inm ates on em ployment wai t ing list s. FPI
inmate employees are paid month ly and, after paying a portion toward any

        2 Starting in October 20 12, t he I ndustr ial Products & Fleet Solutions Business Group
was discont inued as a st anda lone group . Its factor ies were t ransfe rred t o t he Elect ro nics,
Office Fu rn it u re, and Serv ices busi ness groups .

         3 I n Oct ober 20 10, t he OIG issued a report t it led, A Review of Federa l Prison
Industries ' Electron ic Waste Recyclin g Program. The report describes the resu lts of an OIG
investigation int o t he hea lth , safety, and env iro nm ent al com pliance p ractices of t he FPI 's
elect ro n ic-wast e recycl ing program t hat ident ified sign ificant safety and environmenta l
pro blems wit h UNICOR 's e-wast e progra m , incl ud ing a fa ilu re to imp lement adequat e
measures t o add ress the safety of staff and inmat es who were employed in the prog ram. It
can be viewed onl ine at http://www.justice.qov/ oiq / reports / BOP/ o1010.pdf


                                                  4

court ordered fines or restitution, can use their earnings for such things as
purchases at prison commissaries and providing support to their families.

FPI Financial Condition

      FPI does not receive any direct taxpayer funding.4 As a result, it must
generate operating revenue to remain a self-sustaining program. From
FYs 2001-2012, FPI’s net sales ranged from approximately $600 million to
$885 million. FPI achieved financial sustainability during FYs 2001-2008,
averaging net earnings of $26 million per year. Earnings during this period
were primarily attributable to a surge in sales to the Department of Defense
(DOD) as a result of the wars in Afghanistan and Iraq, particularly from the
Electronics and Clothing & Textiles Business Groups. However, FPI struggled
financially from FYs 2009 through 2012, reporting average net losses of
$31 million per year on average net sales of $753 million.

      FPI officials stated that despite these losses, FPI has remained
financially stable due to its factory restructuring and cost containment efforts
from FYs 2009 through 2012, as described later in this report. FPI also
maintains a capital reserve fund, which contains cash available for short and
long-term use and an equipment reserve intended for future capital
improvements.5 The capital reserve fund had a balance of $218 million at
the end of FY 2011. FPI’s net sales, earnings, and fund balance are shown
in Exhibit 3.




       4
           BOP provides unreimbursed support to FPI in the form of land and certain shared
facilities. The notes to the FY 2012 DOJ Annual Financial Statements estimated that the
imputed unreimbursed costs of BOP warehouse space used in the production of FPI goods
and BOP managerial and operational services provided to FPI was approximately $25 million
in each of FYs 2011 and 2012.
       5
         A provision of FPI’s enabling legislation established the capital reserve fund. All
monies under the control of FPI, such as earnings, are deposited into this fund and
employed as operating capital for inmate compensation, construction, vocational training
and other purposes. See 18 U.S.C. § 4126.


                                               5                                               

                                Exhibit 3: FPI Financial Data
                                FYs 2001   2012 (In

     $900


     $700


     $500


     $300


     $ 100


    -$10 0
                 •
             2 00 1   2002
                            •    J.dl
                                2003   2004   2005   20 06   -
                                                             200 7     20 08   200 9            20 11    2~
             _ NET SALE S          _ NET PROFIT/C loss)        • CA PITAL RE SERVE F UND
                                                                 (0,                   THROU GH FYll )

   Sou rce: FPI Fina ncia l Records

OIG Audit Approach

      Th e purpose of our audit was t o det ermine w hat factors have led t o
the significa nt reducti on of inmat e wo r k w ithin FPI, and FPI's pl ans t o
m aintain and crea te wo r k opportuniti es for inmat es .

       Thi s a udit covers FPI op erati ons f rom FYs 2 001-2 0 11, but also incl udes
sel ect in fo rm ati o n th ro ug h August 20 12 . To accompli sh our audit objecti ves,
w e interv iewed FPI /s fo rm er Assistant Directo r and Seni or Deputy Ass ist ant
Director, Genera l Manag ers of its six bu siness groups, other head qua rters
offi cia ls , a nd the members of FPI's Boa rd of Directors . Add itiona ll y, we
attended a Boa rd meetin g , and we v isited six FPI facilit ies w here w e
inte rv iew ed facto ry m anager s, observed fact ory operati ons, and perfo rm ed
payroll testin g .6 We also exa mined FPI's dat a on inmate e mployment,
fin a ncial reco rds, and product offering s. Appendi x I co nta ins a m ore det ailed
descripti o n of our audit obj ectives, scop e, and m ethodology.




        6 We performed fiel dwor k at FPI factor ies at the follow ing BOP locat ions:
( 1) Englewood, Colora do; (2 ) Florence, Colora do; ( 3) Tucson , Arizona; (4 ) Lexingt on ,
Kent ucky; ( 5) Loretto, Pennsylvan ia; and ( 6) Lewisburg , Pe nnsylvan ia.


                                                     6
          FINDING AND RECOMMENDATIONS


DECLINE OF INMATE WORK WITHIN FPI AND EFFORTS
TO MAINTAIN AND CREATE WORK OPPORTUNITIES
FOR FEDERAL INMATES

FPI’s ability to increase or maintain inmate employment depends
largely on the success of its business operations. FPI’s net sales
declined 32 percent from FY 2009 through FY 2012, and it
incurred a net loss in each of those years. FPI officials attributed
the recent struggles to several factors, including changes to the
legal and policy framework in which FPI’s businesses operate
that were designed to reduce FPI’s impact on the private sector.
The changes include new procurement requirements that lessen
the impact of FPI’s mandatory source authority, and new market
share thresholds for certain FPI product lines. The officials also
cited the winding down of the wars in Iraq and Afghanistan; the
downturn of the U.S. economy; and substantial financial losses
in key product lines.

FPI initiated a job-sharing plan that is designed to increase FPI’s
inmate employment with existing resources in a revenue-neutral
manner, and it decided to prioritize the employment of inmates
within 2 years of release. However, we were unable to assess
the full impact of FPI’s efforts in this regard because its metric to
assess its job-sharing outcomes yielded imprecise results. We
also found that FPI did not maintain organizational targets for
the job-sharing program and goals and incentives for General
Managers, which may have limited the effectiveness of its
initiative.

In addition, we found that FPI employed only 7 percent of the
BOP eligible inmate population at the end of June 2012, which
was far below its goal of employing 25 percent of the BOP
eligible inmate population. We also found that, as of June 2012,
37 of the approximately 1,580 inmates employed that were not
citizens of the United States had been issued final deportation
orders and therefore may not have been eligible for FPI
employment under federal regulations.




                                 7                                      

Decline in Inmate Employment

        BOP considers FPI to be one of its most important correctional
programs because it provides inmates with job skills training, prepares
inmates for re-entry into society, improves the safety of correctional
facilities, and has been shown to reduce inmate recidivism. However, as of
June 2012, FPI employed approximately 12,394 federal inmates, its lowest
level of employment since 1986. Moreover, from FY 2007 through
June 2012, FPI inmate employment declined 46 percent even though the
number of inmates in BOP facilities rose 6 percent. The result is that as of
June 30, 2012, FPI employed the lowest percentage of work eligible BOP
inmates in its more than 75-year history. Exhibit 4 displays FPI inmate
employment since FY 2001.

                          Exhibit 4: FPI Inmate Employment 

                               FYs 2001 - 2012 June 7 

25, 000                                                                                               20%
                                                                                                      18%
20, 000                                                             ----------+                       16%
                                                                                                      14%
15, 000                                                                            - - - - - + 12%
                                                                                                      10%
10, 000                                                                                               B%
                                                                                                      6%
 5, 000                                                                                               4%
                                                                                                      2%
      o                                                                                               0%
           2001 2002 2003 2004 2005 2006 2007 2008 2009 2010 2011 2012
                                                                  (June)

  _    N o . OF FPI INMATE S EMPLOYED   _   FPI EMPLOYMENT AS A PE RC ENT OF THE ELI GIB LE BOP WOR KFO RCE


Source: BOP

      FPI implemented factory restructuring initiatives in FYs 2009 and 2010
as a cost savings measure to offset ongoing financial losses, and to reduce
excess production capacity and staffing to a level consistent with
FPI-forecasted business activity. In July 2009, FPI initiated the closure of


        7 Near the end of FY 2009 , FPI revised its definitio n of the " eligible BOP wo rkforce"
to be more inclusive. To ensure consiste ncy , this exhibit retroactively applies the rev ised
definition back to FY 2001. Further deta il on the revised definition is described later in t his
report.


                                                     8

14 factories and specialized operations and downsized 4 factories,
contributing to the elimination of 3,000 jobs between FYs 2009 and 2010.
In July 2010, FPI initiated the closure of 9 more factories and downsized
personnel at an additional 11 factories, resulting in the loss of 1,700 inmate
jobs and displacing 140 FPI civil service employees between FYs 2010 and
2011. In September 2011, in anticipation of a projected $23 million loss for
FY 2012, FPI initiated the closure of an additional 11 factories, including its
electronics test lab, and downsized 2 factories. Also closed in FY 2012, but
not counted as an industrial operation, was the Product Support Center.
This restructuring contributed to the elimination of 1,800 more inmate jobs
from the end of FY 2011 through June 2012. As shown in Exhibit 5, by
June 2012, FPI operated 83 factories, or 21 fewer factories than at the end
of FY 2007. Only the Clothing & Textiles Business Group operated more
factories in June 2012 than at the end of FY 2007.

             Exhibit 5: Number of FPI Factories,            by. Business Group
                           FYs ,.007- 2012 (J
                             #OF
                           FACTORIES       FACTORY            FACTORY        # OF FACTORIES
                          <c.                                C"                    .,n,,,
                                               4                  (14:              .2
         i
  Products & Fleet
                             -¥o­              2                  ( 9)             13



 ~ffice
             i                 l2              4


 I(     i." &                                                     (                3
        I

                                              17
                   LS 

                             ~                                 ~                   83
             FPI

       From FY 2007 to June 2012, the Services Business Group closed the
most factories. Of its 14 factory closures, 6 were call centers. According to
FPI officials, the Services Business Group's call center market declined due
to a variety of factors, including rapidly declining sales on a significant
contract and legislative and Board limitations on inmates handling personal
or financial information. Consumer shifts toward other, often automated and
free, options for directory assistance, and towards the use of smartphones,
also contributed to the decline. The General Manager of the Services
Business Group told the OIG that FPI will eventually phase out its factories
providing directory assistance.



      8 Factory ope nings include operations converted from one bus iness group and/ or

product line to another. Sim ilarly, con verted factories were included in factory closures.


                                               9

       The Industrial Products & Fleet Solutions Business Group closed nine
factories and during FY 2013 will be discontinued as a standalone group,
with its remaining factories transferred to the Electronics, Office Furniture,
and Services Business Groups. The Electronics Business Group, which closed
six factories since FY 2007, has struggled with excess capacity in its
factories , a decline in military orders, and significant losses due to its solar
panel and helmet product lines, which are described later in this report.

      As shown in Exhibit 6, from FY 2007 through June 2012, inmate
employment declined in five of the six business groups, with the exception
being the Recycling Business Group .

                   Exhibit 6: Business Group Inmate Employment 

                              FYs 2007 - 2012 (June)" 

                22 ,831                21,600     18,700      15,653                13,970                12,275
               INMATES                 I NMATES   I NMATES    I NMATES             I NMATES              I NMATES




    o
                2007                   2008       2009         2010                  2011                  2012
                                                                                                           (JU NE )
        II CLOTHI NG     & T EXTILES                          iii ELECTRON ICS
        iii O FFICE FURNITURE                                 iii RECYCLI NG
        iiiI S ERVICES                                        iiil lN DUSTR IAL P RODUCTS   &   FLEET SOlUTIONS


Source: FPI

     The Services, Industrial Products & Fleet Solutions, and Electronics
Business Groups experienced the largest declines, with each reducing inmate
employment by more than 50 percent since FY 2007.

       9 Exhibit 6 does not in cl ude the small number of FPI inmate support staff. From
FYs 2007 through June 2012 , FPI employed between 119 and 321 inmate support staff
annually.


                                                         10
       In addition to the aforementioned reasons, FPI officials said the key
factors contributing to the sustained decline in inmate employment were
legislative changes and, to a lesser extent, policy resolutions adopted by the
Board of Directors that established boundaries on how FPI may operate; the
decline in the U.S. war efforts in Iraq and Afghanistan, which reduced
demand for FPI products and services; the downturn of the U.S. economy
during the late 2000s, which had the same effect; and substantial financial
losses in key product lines. The following sections discuss each of these
factors in more detail.

Legislative Changes and Board of Directors Resolutions

       According to the Congressional Research Service, the “FPI did not face
legislative changes from its inception in 1934 to 1988. However, over the
past few decades, the erosion of the nation’s manufacturing sector, and the
increase in the federal inmate population, at the same time the federal
government was downsizing, increased congressional interest in FPI.”10 In
the last decade, several legislative changes have affected FPI’s business
operations, as have certain resolutions adopted by the FPI Board of
Directors.

      Legislative Changes

       The most significant legislative changes have involved the modification
of FPI’s “mandatory source” authority, a provision of FPI’s enabling
legislation that required all federal agencies to purchase products marketed
by FPI instead of soliciting bids from commercial entities.11 Mandatory
source authority has long been highly controversial, with critics asserting
that the provision gives FPI an unfair competitive advantage over the private
sector that displaces U.S. workers from their jobs. Supporters, including
members of the FPI’s senior leadership, have historically maintained that the
mandatory source authority is necessary to maintain a constant flow of work
for inmates.

      Legislative changes over the past decade have generally sought to
reduce the impact of FPI’s mandatory source authority on the private sector.
For example:



      10
           Congressional Research Service, Federal Prison Industries (December 8, 2011), 9.
      11
        Federal agencies consist of both DOD and civilian agencies, including the
Department of Justice.


                                            11                                                

   	 The National Defense Authorization Act for FY 2002 required
      market research be performed by the DOD before purchasing from FPI
      and applied to purchases initiated on or after October 1, 2001.

   	 The Bob Stump National Defense Authorization Act for FY 2003
      modified some of the market research language and established rules
      stating that the DOD not purchase FPI products or services unless a
      Contracting Officer determines the product or service is comparable to
      those of the private sector.

   	 The Consolidated Appropriations Act, 2004 stated that for
      FY 2004, appropriated funds under this act should not be expended for
      the purchase of an FPI product or service unless the agency making
      such purchase determines that the product or service provides the
      best value to the buying agency. This act essentially applied the
      procedures, standards and limitations of the abovementioned National
      Defense Authorization acts to civilian agencies for FY 2004.

   	 The Consolidated Appropriations Act, 2005 contained language
      identical to the prior year but now applied to FY 2005 and each fiscal
      year thereafter.

   	 The National Defense Authorization Act for FY 2008 introduced
      the concept of “significant market share,” removing FPI’s mandatory
      source authority if its share of the DOD market for a category of
      products is greater than 5 percent. This law required the Secretary of
      Defense to publish a list of product categories for which FPI’s share of
      the DOD market is greater than 5 percent, based on the most recent
      fiscal year data available.

      The National Defense Authorization Acts for FYs 2002 and 2003 and
the Consolidated Appropriations Acts for FYs 2004 and 2005 contained
provisions, still in effect today, that placed new conditions on when FPI must
be considered a mandatory source for products and services. These acts
stated that FPI was no longer a mandatory source for the DOD and civilian
federal agencies unless the agency Contracting Officer determines that FPI
products were comparable in price, quality, and time of delivery to products
in the commercial marketplace. If FPI’s product is determined to be not
comparable on one or more of these factors, FPI must bid against private
sector suppliers for the contract under competitive contracting procedures
that direct Contracting Officers to select a supplier based on the “best value”
to the federal government. Moreover, even if the Contracting Officer
determines FPI’s product to be comparable on all three factors, the
Contracting Officer may nevertheless request a waiver from FPI to purchase


                                      12                                          

the private sector product based on factors other than price, quality, or
timeliness of delivery.12 According to the former Director of the BOP, this
legislation primarily affected the Office Furniture Business Group, whose
sales declined 44 percent from FYs 2002 through 2007. As a result of these
sales decreases, FPI removed approximately 1,780 inmate employees from
the program during this period. Since FY 2007, Office Furniture Business
Group sales have generally risen but at the end of FY 2011 remain about
29 percent below its FY 2002 sales.

        In addition, provisions of the National Defense Authorization Act for
FY 2008 that are still in effect established a “significant market share” limit
of 5 percent on FPI’s sales to DOD for individual Federal Supply Classes
(FSC), above which FPI loses its mandatory source authority on DOD sales
for these FSCs.13 As required by this law, DOD must identify and publish a
list of all such FSCs, and for these FSCs, DOD can only purchase FPI
products using competitive procurement procedures.14 From the passage of
the National Defense Authorization Act for FY 2008 through April 2010, the
DOD identified 15 of FPI’s approximately 100 FSCs sold to the DOD that
exceeded the 5 percent threshold, including 6 of FPI’s bestselling FSCs which
together accounted for approximately 63 percent of sales to the DOD over
the previous decade.15 Of these 15 FSCs, 11 experienced declining sales in
the first year after being listed. For example, the DOD identified FSC 5975,
“Electrical Hardware and Supplies,” on its list of products exceeding the
market share threshold in March 2008 and that FSC remained on the DOD’s
list until April 2010. From FYs 2008 through 2010, FPI sales in this product
category plummeted from $39.9 million to just $376,000. We note,
however, that there is no precise method to calculate the direct dollar impact
of the 5 percent threshold on a product category’s sales, and that several
other factors may have contributed to these results, including the loss of a


       12
           In some circumstances, purchase from FPI is not mandatory and a waiver is not
required, including when purchases are made on a competitive basis, public exigency
requires immediate delivery or performance, suitable used or excess supplies are available,
or the supplies are acquired and used outside the United States.
       13
          FSCs are used to group products with respect to their physical or performance
characteristics.
       14
           If the DOD subsequently determines that the FPI’s market share for an affected
FSC has dropped back below the 5-percent threshold, FPI regains its mandatory source
authority for that FSC.
       15
          The six product categories, by FSC, are: (1) 8415 – Clothing, Special Purpose;
(2) 7110 – Office Furniture; (3) 8470 – Armor, Personal; (4) 5995 – Cable, Cord, and Wire
Assemblies; (5) 6150 – Miscellaneous Electrical Power/Distribution Equipment; and
(6) 5975 – Electrical Hardware and Supplies.


                                            13                                                

significant contract, decreased spending by the DOD in a particular product
category, and the effects of other previously mentioned legislation.

     In FPI officials’ view, the primary effect of the mandatory source
authority is now to provide visibility to FPI products by requiring that
Contracting Officers consider FPI’s products prior to initiating competitive
procurement procedures, and allowing FPI to submit bids for competitively
awarded contracts.

       Board of Directors Resolutions

       In 2003, FPI’s Board of Directors, which is required by statute to
provide employment for the greatest number of inmates while
simultaneously minimizing competition with private industry, enacted two
resolutions with a direct impact on sales.16 These resolutions required FPI to
eliminate the mandatory source authority for: (1) FSCs with a greater than
20 percent share of the federal market; and (2) purchases under $2,500.17
Prior to passage of these resolutions, federal agencies were required in such
instances to purchase FPI’s mandatory source-designated products unless
the purchasing agency obtained a waiver from FPI or determined that the
FPI’s product was not comparable in price, quality, and time of delivery.

      FPI officials told the OIG that in the first few years after implementing
the 20 percent market share resolution, the greatest impact was on FPI’s
Cable, Cord and Wire Assemblies product line, for which sales decreased
over $20 million from FYs 2005 through 2006. FPI estimated that the Board
resolution eliminating mandatory source authority for purchases under
$2,500 had a negative net impact of $6.5 million annually. FPI officials
could not determine, however, to what extent the declines in sales were also
attributable to other factors.

Decline in War Efforts

      The DOD is the largest government purchaser of contract goods and
services, having spent $374 billion in FY 2011 and accounting for
approximately 70 percent of all federal contract sales. The DOD has also

       16
          One Board member we interviewed described the Board’s competing
responsibilities of increasing inmate employment while minimizing competition with private
industry as a “daily tension.”
       17
          These resolutions are still in effect today, with modifications: in April 2007, the
$2,500 dollar-value purchase threshold was increased to $3,000; and in March 2008, the
National Defense Authorization Act for FY 2008 changed the market share threshold, with
respect to the DOD, from 20 percent to 5 percent.


                                              14                                                

been FPI's largest customer, representing 57 percent of FPI's average annual
sales from 2001 to 2011, and 48 percent of FPI's sa les in FY 2011. In
comparison, FPI's next two largest federal agency customers, the
Department of Homeland Security and the General Services Administration,
accounted for just 21 percent and 5 percent of FPI's FY 2011 sales,
respectively. Exhibit 7 shows the breakdown of FPI's sales by agency in
2011.

                 Exhibit 7: FY 2011 FPI Sales by Customer'·


                                                         • 	 D EPARTMENT O F D EFENSE



                                                         • 	 D EPARTM ENT O F H OME LAND
                                                           SECURITY

                                                         • 	 N ON-FEDE RAL ENTITIES



                                                         • 	 A l l OT HER FEDERAL AG EN CIES



                                                         • 	 G ENE RAl SERVICES ADM INISTRATIO N



                                                         • 	 FED ERAL B U REAU OF PR ISO NS



                                                         • 	 SociAL SECU RITY A DM IN ISTRATION




Source: FPI

     However, as shown in Exhibit 8, FPI sales to the DOD declined from a
peak of $536 mil lion in FY 2007 to $357 mi llion in FY 2011.




       18 Differences in totals are due to rounding (the sum of individual numbers prior to
rounding may differ from the sum of the individual numbers rounded).



                                             15 

          Exhibit 8', FPI Annual Sales to DOD FYs 2001-2011
       FISCAL     TOTAL SALES      DOD SALES
       YEAR       (IN MILLIONS)      (IN MILLIONS)    0/0   OF TOTAL SALES
       2001            $584                    $388            66%
       2002            $679                    $412            61%
       2003            $667                    $379            57%
       2004            $803                    $502            63%
       2005            $765                    $482            63%
       2006            $718                    $412            57%
       2007            $853                    $536            63%
       2008            $854                    $452            53%
       2009            $885                    $461            52%
       2010            $777                    $362            47%
       2011            $745                    $357            48%
    Source. FPI

      FPI officials attributed this decline mainly to the scaling back of the
war efforts in Iraq and Afghanistan; the tightening of the domestic economy,
which resulted in increased competition from new businesses that had not
previously sought DOD contracts; and as previously mentioned, the
legislative restrictions placed on FPI/s use of its mandatory source authority
when FPI/s DOD-related market share exceeded 5 percent on certain
products.

Financial Losses to Key Product Lines

       Some of FPI/s financial struggles and declining employment numbers
have been the result of substantial losses to key product lines, most notably
the Electronics Business Group's solar panel and military helmet product
lines.

      In FY 2008, FPI decided to enter into the solar panel market to
capitalize on the increased global demand for solar panels and Congressional
mandates to increase the federal government's renewable energy usage.
FPI's Board of Directors approved the production of solar panels in
April 2008, and shortly thereafter, FPI began production at its Otisville, New
York facility with an initial annual capacity of 24 megawatts. In May 2009,
FPI's Board approved a second solar panel factory in Sheridan, Oregon, to
provide geographic diversification and reduce transportation costs of finished
panels to west coast customers. The Sheridan factory added an additional
50 megawatts of capacity, bringing FPI's total annual solar panel production
capacity to 74 megawatts. However, FPI officials told us that their initial
projections of the market for solar panels never materialized because of an
unanticipated drop in the market price for solar panel equipment, and that

                                        16 

FPI’s efforts to compete in the solar panel market were frustrated by delays
in obtaining the necessary certifications showing that FPI solar panels met
industry standards for safety and reliability. As a result, in FY 2010, FPI
recognized $17.3 million in losses due to writing down the book value of
solar cells and panel inventory to market value.

       FPI also sustained losses to its military helmet product line. In
December 2009, the DOJ OIG initiated an investigation related to FPI’s
manufacture of military helmets based on allegations that some of the
helmets did not meet contract specifications or had failed ballistic testing.
FPI decided to waive the mandatory source requirements on the helmets and
later suspended helmet production in Beaumont, Texas. FPI subsequently
recognized $17.8 million in losses due to writing off the book value of
military helmets in FY 2010 and closed its Beaumont factory in FY 2011. As
of July 2013, the investigation is still ongoing.

FPI Efforts to Maintain and Create Work Opportunities for Federal
Inmates

        FPI’s ability to maintain and create inmate employment opportunities
depends largely on the success of its business operations. In recent years,
negative economic and legislative forces have resulted in decreased sales
and the FPI’s lowest level of inmate employment in over 25 years. These
conditions have led FPI to pursue new business development opportunities
and new methods to maximize FPI’s inmate employment with existing
resources. In this section, we describe FPI’s recent inmate employment
initiatives and business development efforts aimed at maintaining and
creating work opportunities for federal inmates.

Revenue-neutral Inmate Employment Initiatives

        FPI has undertaken two initiatives to maximize inmate employment in
a revenue-neutral manner and re-focus its employment mission. The first
initiative seeks to maximize the number of inmates exposed to the benefits
of working for FPI through the use of expanded half-time employment, or
“job-sharing.” The second initiative seeks to expose more inmates with
release dates within 2 years to FPI work opportunities. Both initiatives went
into effect in September 2010.




                                     17                                         

      FPI Inmate Job-sharing Initiative

        In a September 2010 memorandum to all FPI Associate Wardens and
Superintendents of Industries, FPI's Chief Operating Officer stated that one
method to increase inmate employment is through use of job-sharing, by
which two inmates each work half-time to fill a single full time position. This
initiative was intended to increase the number of inmate workers employed
by FPI while minimizing the impact on factory efficiency and costs.

        FPI’s job-sharing results appeared to demonstrate that the job-sharing
initiative had increased the percentage of FPI’s workforce working half-time
from 12 percent at the end of September 2011 to 19 percent by the end of
the June 2012. However, an OIG review of these statistics determined that
the data collected from factories for these results was unreliable. When FPI
headquarters compiled its job-sharing results, it expected that factories
would count the number of half-time inmate employees, defined as those
inmates working approximately 50 percent of a normal factory workweek.
However, FPI officials indicated that some factories instead used a BOP
payroll definition of “part-time,” which counted all inmates working less than
90 percent of the normal factory workweek. This confusion was due to FPI
headquarters not clearly explaining to factories how to define and count
half-time inmate employees. As a result, FPI job-sharing data collected from
September 2010 through March 2012 was inaccurate and, in some
instances, overstated. FPI took immediate action upon learning of the
inaccuracies by addressing Associate Wardens at all field locations on the
intent of the initiative and issuing additional guidance on how factories
should count half-time employees.

       In addition to this data reliability issue, we believe FPI’s method of
tracking job-sharing results does not adequately capture the true impact of
the job-sharing initiative. As previously stated, the purpose of the job-
sharing initiative was to use two inmates, each working half-time, to fill a
single full time position, thereby increasing the number of inmate workers
exposed to the program. Yet FPI tracks the initiative’s progress by reporting
the percentage of inmates working half-time without regard to the
circumstances that led to the half-time schedule. As a consequence, FPI
counts all half-time inmates towards the success of the job-sharing initiative,
not just those inmates who are working half-time as a result of the initiative.
This methodology risks counting inmates whose half-time schedule is due to
other factors, such as inmates who work at a factory that operated half-
shifts prior to the job-sharing initiative, or inmates who have had their hours
cut due to declining workload instead of for job-sharing purposes. In these
instances, since the inmate is working half-time would not indicate that an
additional inmate was provided a new employment opportunity with FPI.


                                      18                                          

       The FPI’s methodology also does not account for instances where
inmate employee work hours are affected by “call-outs,” which are
scheduled appointments for medical, education, or other purposes that are
not included in an inmate’s labor hours. Under the FPI’s current
methodology, inmates with a significant amount of call-out hours could be
considered half-time and thereby counted towards the success of FPI’s job-
sharing initiative even though there may be no direct evidence that
additional inmates were exposed to the program. For example, at Federal
Correctional Institution (FCI) Lewisburg’s Recycling Factory (LERC),
participating in the job-sharing initiative was impossible because all available
inmates were already working for FPI and there were no additional inmates
available to hire. Nevertheless, LERC reported 58 percent of its inmates as
“half-time” due to call-outs that reduced inmates’ labor hours for the period,
and those inmates were included in FPI’s job-sharing statistics even though
LERC had not actually exposed any new inmates to FPI.

       Furthermore, there was uncertainty as to whether a rise in the percent
of half-time employment was due to job-sharing success, or the result of a
changing mix of full- and half-time employees resulting from reduced
workloads and the idling or closing of factories. For example, one factory
went from reporting zero employees working half-time in the first quarter of
FY 2012 to over 120 in the third quarter of FY 2012. However, during this
period, aggregate inmate employment declined by 36 inmates, indicating
that the increased number of half-time workers did not result in a
corresponding increase in FPI inmate employment. The General Manager of
that business group told the OIG that when the factory submitted its
job-sharing data to FPI, the factory was unable to differentiate actual
job-sharing results from the effects of the reduced workload that the factory
experienced in the third quarter of FY 2012. We believe that if job-sharing
continues to be a priority, FPI should consider a more direct approach to
quantifying its job-sharing results, such as counting both the number of
inmates hired into a half-time position and inmates whose shifts were
converted from full to half-time for job-sharing purposes.

        Moreover, data reliability issues notwithstanding, there are indications
that FPI’s job-sharing initiative may be falling short. Nearly 2 years after the
initiative’s implementation, approximately 33 percent of FPI’s factories had
reported zero half-time employees, and in June 2012, the Industrial Products
& Fleet Solutions group reported that only 5 percent of its workforce was
designated half-time, a significantly smaller percentage than the other
business groups. These results may in part be attributable to a lack of
incentives for achieving job-sharing results. Specifically, after FY 2011, FPI
eliminated job-sharing performance measures and rating criteria from


                                      19                                           

General Managers’ performance work plans because a senior FPI official
believed business groups had made enough progress on the job-sharing
initiative that the measures were no longer necessary. As of June 2012, FPI
had not re-established an organizational job-sharing target that would allow
it to track progress towards achieving its goal.

       Prioritization of Employing Inmates Close to Release

      FPI’s Corporate Strategic Plan for FYs 2011-2013 established a
strategic goal of increasing efforts to expose inmates with release dates
within 2 years to FPI work opportunities. The initiative, formalized in
September 2010, was the result of an FPI survey indicating that most
inmates were being released without having participated in the program.

      To execute this initiative, factory managers were instructed to update
factory waiting lists to prioritize the hiring of inmates within 2 years of
release, as practicable. Previously, factories hired on a first come, first
served basis from a general waiting list, or based on waiting list priority
considerations.19 Although this initiative became effective in September
2010, FPI officials told the OIG that they only began tracking this data
around August 2012 at which time 2,795 of FPI’s 12,469 inmate employees,
or 22 percent, had less than 2 years remaining on their sentence.20

        During fieldwork at an FPI factory in June 2012, FPI factory
management expressed concerns over increased employee turnover
associated with giving priority to inmates within 2 years of release, including
increased training and other replacement costs, and reduced factory
productivity. FPI’s Senior Deputy Assistant Director acknowledged these
obstacles, but said that they would not prevent FPI from pursuing the
initiative, noting that while it is important for FPI to remain efficient and
competitive, FPI also must employ as many inmates close to release as
possible.



       19
           Waiting list priority considerations are granted in the case of a factory closing or
relocating and displacing an inmate employee; an inmate with a prior FPI work assignment;
on a needed skills basis; or for special needs such as participation in the Inmate Financial
Responsibility Program, to assist in paying a significant financial obligations, such as
restitution.
       20
            The number of inmates employed at FPI within 2 years of release as of August
2012 is presented as contextual information only. The OIG has not audited the information
because it did not materially support any findings, conclusions, or recommendations. FPI
officials told us that the data was obtained from a query of the SENTRY Inmate Management
System, which in our opinion is the best available source for this data.


                                              20                                                  

Business Development Efforts

       In addition to its revenue-neutral efforts to increase inmate
employment, FPI has also undertaken business development initiatives to
boost revenue and create new jobs. Two notable initiatives attempt to take
advantage of provisions in the Consolidated and Further Continuing
Appropriations Act for 2012 that created new opportunities for FPI. First,
the Act granted FPI the authority to repatriate, or bring back to the United
States, the manufacture of products which are currently, or would otherwise
be, manufactured, produced, mined, or assembled outside the United
States. Second, it allowed FPI to participate in the Prison Industry
Enhancement (PIE) Certification Program, which allows the formation of a
joint venture with private industry to produce goods for sale outside of the
federal government. FPI’s progress toward implementing these initiatives is
described below.

      Repatriation Authority

      FPI officials told us that they were moving aggressively to take
advantage of new opportunities to offer products commercially which are
currently, or would otherwise be, manufactured, produced, mined, or
assembled outside the United States. According to FPI officials, this new
opportunity, known as “repatriation authority,” creates the potential for FPI
to earn significant revenue by either manufacturing and selling repatriated
products to the commercial market, or entering into a partnership with a
private company where FPI would manufacture the repatriated product and
the private company would be responsible for marketing and sales.

       As of February 2012, FPI’s Board of Directors had approved several
pilot projects under its repatriation authority. One such project was the
production of photovoltaic solar panels, for which FPI has changed its
business plan from marketing solely to federal agencies – the strategy that
led to the negative financial results described above – to a pilot project
seeking to access the commercial market by providing manufacturing for a
partner company that would otherwise manufacture its products outside the
U.S. In August 2012, FPI told us that they had met with potential partner
companies but had not yet obtained any partnership agreements. FPI
officials attributed this to the fact that the overall solar market in general
has not improved, and that many companies are reluctant to be associated
with the use of inmate labor.

      FPI officials also told us that other business groups have been
exploring opportunities to use repatriation authority, but since the authority
was fairly new, these projects were still in the planning phase. Three such


                                      21                                         

projects were the production of parkas for a textile manufacturer, the
production of light emitting diodes (LED) lighting for a partner distribution
company, and the production of tents and sidewalls, all of which would
otherwise be manufactured or assembled outside the United States. Yet at
the time of our audit, FPI officials told the OIG that, in general, repatriation
has been less successful than expected, primarily due to unanticipated
difficulties identifying domestic business partners willing to associate with
the use of inmate labor.

      PIE Certification Program

      The PIE Certification Program was created in 1979 by Congress to
encourage employment opportunities for prisoners that approximate private
sector work opportunities. The program exempts certified prison facilities
from normal restrictions on the sale of prisoner made goods in interstate
commerce, and is designed to place inmates in a realistic work environment,
pay them the prevailing local wage for similar work, and enable them to
acquire marketable skills to increase their potential for successful
rehabilitation and meaningful employment when they are released.
Previously, participation in the PIE Certification was restricted to non-federal
prison facilities, but the Consolidated and Further Continuing Appropriations
Act for 2012 removed this restriction, allowing FPI to seek certification for
federal prison facilities under the PIE Certification Program for the production
of goods for sale outside of the federal government.

       FPI officials told us that they viewed PIE as a less viable option for new
business development than the repatriation authority. Specifically, FPI
officials told the OIG that under PIE, FPI would be required to pay inmates
higher wages, thus increasing overhead costs. They also expressed their
concern that, although FPI has received umbrella approval to participate in
PIE, each project would have to be individually certified, a process that FPI
officials viewed as resource intensive. Additionally, FPI officials told us that
based on their assessment of various state programs currently operating
under PIE and the variability of market rate wages in each state, FPI was
unlikely to be able to pursue regional or nationwide programs, but instead
might have to identify smaller, niche markets to be successful. As of
August 2012, FPI was evaluating potential business opportunities under the
PIE program in light of these concerns, and was in the process of obtaining
PIE certification.




                                       22                                           

      FPI’s Approach to Business Development

       Our audit identified two issues that we believe have the potential to
hinder FPI’s ongoing initiatives to take advantage of its new business
opportunities. First, FPI’s former Chief Operating Officer told us that in
response to an increase in the number of private sector competitors and to
statutory changes to FPI’s mandatory source authority, FPI has had to
increase its sales and marketing efforts. Yet we found that FPI has had
limited experience in sales and marketing due to its previous reliance on the
use of the mandatory source authority. Responsibility for business
development has been partially transferred to the business groups, and
those business groups have taken very different approaches to their sales
and marketing efforts. Second, some General Managers of FPI’s business
groups expressed concern to the OIG that FPI’s current business
development approach, which relies heavily on the General Managers,
negatively affected their ability to oversee the operation and productivity of
FPI’s factories.

       FPI operates a two tiered business development approach. At the
corporate level, FPI’s Marketing, Research and Corporate Support Branch
(MRACS) is generally responsible for outreach and increasing awareness of
FPI as a whole, in addition to performing market analysis to comply with the
statutory requirements for new product introduction.21 At the business
group level, each business group is responsible for its own product-specific
sales and marketing efforts. Consequently, business development efforts to
identify new products, markets, and customers have been assigned to the
General Managers of each business group with the rationale that each
business group would be the most knowledgeable on the products being
manufactured and would therefore be in the best position to implement a
product-specific business development approach.

       Our audit found that FPI’s business groups approached their business
development responsibilities in very different manners, with some business
groups hiring consulting firms and contract sales forces to identify new
target markets, and other groups depending exclusively on their existing
program managers to identify and develop new products for the needs of
their current customers. In addition, many of the FPI officials representing
the various business groups told us that their business development
responsibilities distracted them from their other operational duties, such as
managing the production and order fulfillment processes, and that, as a
result, they had to rely on MRACS for business development support even
though this function was outside of MRACS’s scope of responsibilities.

      21
           18 U.S.C. § 4122 (2012)


                                      23                                         

      In August 2012, FPI formed a new business development group at the
corporate level. This group was established to pursue opportunities for the
growth of FPI’s business in all product and service areas, including new
business from repatriation and PIE authorities.

Inmate Employment Goal

      The Department of Justice embraces the concept of
performance-based management, which is the principle that improved
performance is attained by focusing on mission, agreeing on goals and
objectives and the timely reporting of results. DOJ’s Strategic Plan provides
the Department’s overarching goals and objectives, and DOJ components,
including FPI, use this framework to establish their program goals and
objectives, implement the programs, monitor performance, and evaluate
results.

        FPI has a programmatic goal of employing 25 percent of the eligible
BOP inmate population. FPI calculates its progress towards achieving this
goal by dividing the number of FPI inmate employees by the “eligible BOP
inmate population.” Prior to November 2009, the eligible BOP inmate
population was defined as the number of BOP inmates housed in
non-contract minimum, low, medium, and high security facilities where FPI
had existing operations, and as a result did not include most male minimum
security facilities or detention centers. However, in November 2009, FPI
revised this definition to include inmates housed in all non-contract BOP
facilities. FPI believed this revised definition was a more appropriate
representation of the eligible inmate population. As a result of FPI’s change
to this more inclusive definition, the percent of the eligible BOP inmate
population employed dropped substantially: at the end of FY 2009, FPI
employed 11 percent of the eligible BOP inmate population instead of the
16 percent it would have attained under the prior definition.22

       Despite this change, FPI kept its goal of employing 25 percent of the
eligible BOP inmate population. Using FPI’s current, revised definition of
“eligible BOP inmate population,” FPI has not met its 25 percent goal since
1989, when it employed 27 percent of the inmate population.23 Since
FY 2001, FPI employed no greater than 17 percent of the eligible BOP

      22
          To ensure the consistency of our analyses, and unless otherwise noted, the OIG
has retroactively applied FPI’s current, revised definition throughout this report when
discussing the percentage of the eligible BOP inmate population that FPI employs.
      23
         Under FPI’s prior definition of “eligible BOP inmate population” FPI last met its
25 percent goal in 2001 when it employed 25 percent of the eligible BOP inmate population.


                                           24                                                

inmate population , and as of June 2012, employed only 7 percent, the
lowest percentage in its over 75-year history. Moreover, while the federal
inmate population has steadily grown , FPI inmate employment has steadily
decreased; from 2001 through June 2012, the eligible BOP inmate
population increased by 47, 092 inmates, or 36 percent, yet FPI's
employment has decreased by 10, 166 inmates, or 45 percent. Exhibit 9
displays the average number of FPI inmate workers as a percentage of the
eligible population since 1970 using the current, revised FPI definition of the
eligible BOP inmate population.

      Exhibit 9: Average FPI Inmate Workers and Eligible Inmate 

                 Population, FYs 1970 - 2012 (June)24 


    200 ,000                                                                                            40 %

                                                                                                        35 %

    150,000                                                                                             30 %

                                                                                                        25 %

    100,000                                                                                             20 %

                                                                                                        15%

     50 ,000                                                                                            10%

                                                                                                        5%

           o                                                                                            0%
                     19705             19805            19905           20005        2010­ 201 2(Q3)

       _   No . OF I NMATE WORKERS _    No . OF EUGI BLE I NMATE S _   PERCENT OF EUGI BLE IN MATE EM PLOYED



   Source: FPI

      To have met its 25-percent employment goal for June 2012, FPI would
have needed to provide work for over 44,000 inmates, roughly three times
as many inmates as FPI actually employed in June 2012, and nearly double
the highest employment level ever achieved by FPI. FPI officials told the
OIG that due to the continued rise in the eligible inmate population and the
more inclusive definition of the eligible BOP inmate population, the
25-percent employment goal is no longer representative of current
conditions. Therefore, as of September 2012, FPI was developing a proposal
to replace its current employment goal that would be consistent with the
Department's commitment to performance-based management and

       2.4 The information in Exhibit 9 is comprised of the average inmate employment, by

decade , from FYs 1970 - 2009, and the average inmate employ me nt for FYs 2010 ­
 June 2012.


                                                     25 

reflective of FPI’s available resources and evolving operational and economic
environment.

Employment of Non-U.S. Citizens

      Federal regulations prohibit FPI from employing any inmate who is
currently under an order of deportation, exclusion, or removal, and direct
that any inmate who is currently under an order of deportation, exclusion, or
removal shall, unless otherwise excepted, be removed from any FPI work
assignment and reassigned to a non-FPI work assignment for which the
inmate is eligible.25 According to BOP Program Statement 8120.02, Work
Programs for Inmates – FPI, inmates with a deportation order who are
appealing the decision also are ineligible for FPI work assignments.

       As of June 2012, FPI employed 1,580 inmates that were not citizens of
the United States, representing approximately 13 percent of its workforce.
Based on BOP information, we found that 37 of these 1,580 non-U.S. citizen
inmates had been issued final removal orders by Immigration and Customs
Enforcement (ICE) or the Executive Office for Immigration Review and were
eligible for deportation.26 We determined that several of these inmates had
continued to work for FPI years after receiving a final deportation order, or
had been hired into FPI while already under an order of deportation. FPI’s
hiring and continued employment of inmates that were ordered deported by
a federal immigration judge indicates that it does not have adequate internal
control processes in place to ensure that once inmates receive final orders of
deportation, they are no longer eligible for hire at FPI or are removed from
existing FPI employment.

      FPI officials informed us that since we brought this issue to their
attention, they have removed 35 of the 37 identified inmates from FPI
employment. One inmate continued to work for FPI because he claimed he
had been misidentified; FPI is working with ICE on the resolution of his
status. One inmate had already ceased working for FPI.27

       25
            28 C.F.R. §§ 345.35, 345.42 (2012)
       26
         This determination was based on a query of the BOP’s SENTRY information
system focused on inmates designated as "IHP CMPWDI" and "IHP CMPWDE," which means
an assessment by the Immigrations and Customs Enforcement (ICE) or Executive Office for
Immigration Review was complete and the inmate was, or is to be, deported.
       27
           Inmates with a removal order may not actually be removed from the United
States in certain instances, such as when the designated country of removal will not accept
his or her return. In such an instance, this inmate would be eligible for FPI employment.
We identified 9 such inmates during the course of our audit work that were not included in
37 deportable inmates discussed in our report.


                                            26                                                

Conclusion

       Due to its recent struggles, FPI is facing its lowest inmate employment
in over 25 years. Although its ability to increase inmate employment
depends largely on the success of its business operations, FPI must also
pursue opportunities to maximize inmate employment with current
resources. We found that, to address this issue, FPI had begun to prioritize
the employment of inmates within two years of their release dates, and had
implemented a job-sharing initiative to increase inmate employment with
existing resources. However, we also found that improvements are needed
to ensure accurate and reliable reporting of its job-sharing results, and to
establish organizational targets and ensure that responsible officials have
appropriate incentives for achieving them.

      In addition, we found that FPI’s target employment goal of 25 percent
of the total inmate population was no longer representative of current
conditions due both to the continued rise in the eligible inmate population
and to the use of a more inclusive definition of the eligible BOP inmate
population. Finally, although federal regulations prohibit FPI employment of
deportable aliens unless otherwise specifically excepted, we found that FPI
employed 37 inmates that had been issued final deportation orders,
indicating a weakness in the FPI’s internal controls.

Recommendations

We recommend that FPI:

   1.	   Adjust the performance metric for its job-sharing initiative so that it
         more directly quantifies FPI’s efforts to employ more inmates.

   2.	   Establish organization-wide or business group targets for the
         job-sharing initiative, and reestablish performance metrics for
         responsible officials’ performance work plans to incentivize meeting
         those targets.

   3.	   Finalize a policy to replace its previous inmate employment goal
         with one that is better aligned with the FPI’s current operational
         and economic environment.




                                      27                                           

4.	   Establish internal control procedures to ensure that it no longer
      considers for hire or employs aliens who have received a final order
      of deportation, exclusion, or removal, when doing so is prohibited
      by law, regulation, or policy.




                                  28                                         

              STATEMENT ON INTERNAL CONTROLS


       As required by the Government Auditing Standards, we tested, as
appropriate, internal controls significant within the context of our audit
objectives. A deficiency in an internal control exists when the design or
operation of a control does not allow management or employees, in the
normal course of performing their assigned functions, to timely prevent or
detect: (1) impairments to the effectiveness and efficiency of operations,
(2) misstatements in financial or performance information, or (3) violations
of laws and regulations. Our evaluation of the Federal Prison Industries’
(FPI) internal controls was not made for the purpose of providing assurance
on its internal control structure as a whole. FPI’s management is
responsible for the establishment and maintenance of internal controls.

       As noted in the Finding and Recommendations section of this report,
we identified deficiencies in FPI’s internal controls that are significant within
the context of the audit objectives and based upon the audit work performed
that we believe adversely affect FPI’s ability to ensure that inmates or
detainees currently under an order of deportation, exclusion, or removal are
excluded from FPI employment pursuant to 28 C.F.R. § 345.35 (2012).
According to BOP Program Statement 8120.02, Work Programs for Inmates
– FPI, upon receiving documentation that an inmate has been issued a
removal order, FPI is required to reassign that inmate to a non-FPI work
assignment or removed from the FPI factory’s waiting list. However, we
found that despite these policies, as of June 2012, 37 of the 1,580 non-U.S.
citizen inmate employees had been issued final removal orders by the
Immigration and Customs Enforcement Executive Office for Immigration
Review and were eligible for deportation.

       Because we are not expressing an opinion on FPI’s internal control
structure as a whole, this statement is intended solely for the information
and use of the auditee. This restriction is not intended to limit the
distribution of this report, which is a matter of public record.




                                       29                                           

                  STATEMENT ON COMPLIANCE

                 WITH LAWS AND REGULATIONS 


      According to generally accepted government auditing standards,
auditors should identify the laws and regulations that are significant within
the context of the audit objectives and assess the risk that violations of
those laws and regulations could occur. As noted in the Finding and
Recommendations section of this report, we found that FPI did not comply
with regulations regarding the assignment of inmates to FPI. Specifically,
28 C.F.R. § 345.35 (2012), states that an inmate or detainee may be
considered for assignment with FPI unless the inmate or detainee is
currently under an order of deportation, exclusion, or removal. FPI had
guidance on the actions necessary to ensure FPI does not employ inmates
issued final deportation orders. However, this guidance was not consistently
followed. This matter is discussed in detail in the body of this report.




                                     30                                         

                                                              APPENDIX I 


            OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

      The objective of our audit was to determine what factors have led to
the significant reduction of inmate work within the Federal Prison Industries
(FPI), and FPI’s plans to maintain and create work opportunities for inmates.

Scope and Methodology

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our finding and conclusions based on our
audit objectives. We believe that the evidence obtained provides a
reasonable basis for our finding and conclusions based on our audit
objectives.

       Our audit generally covered, but was not limited to, FPI operations
from fiscal years (FY) 2001 through 2011, but also includes select
information through August 2012. To accomplish our audit objective we:
(1) interviewed FPI’s former Chief Operating Officer and Senior Deputy
Assistant Director, General Managers of its six business groups, other
headquarters officials, and the members of FPI’s Board of Directors;
(2) attended a Board of Directors meeting in January 2012; (3) visited six
FPI factories located in Englewood, Colorado; Florence, Colorado; Lexington,
Kentucky; Lewisburg, Pennsylvania; Loretto, Pennsylvania; and Tucson,
Arizona; where we interviewed factory managers, observed factory
operations and performed payroll testing; (4) reviewed internal controls
related to reporting of inmate employment, and (5) obtained and analyzed
relevant FPI documentation.

FPI Factory Site Selection

      We selected factories from two business groups, Recycling and
Electronics, to gain an understanding of FPI factory operations in general.
These two business groups were judgmentally selected because electronics
was responsible for the highest amount of loss, and recycling is a relatively
new business group that employed a large number of inmates relative to its
sales. We selected Florence and Englewood, Colorado, as preliminary sites,
and then judgmentally selected four additional factories based on the


                                     31                                         

profitab ility, inmate em ploym ent, a nd product of fe rin gs co nsiderati ons
described bel ow.

      For each of e lectronics and recyclin g fact ori es operating at t he end of
FY 2011 , we ca lculated the gross profit m argin fo r FYs 2009 th roug h 2011
based on dat a provided by the FPI. 28 In addit ion, we ca lculated th e number
of inmat es empl oyed in each factor y pe r $ 1 millio n of factory sa les as
reported by FPI. Th e results of our ca lculati o ns are shown in Ex hibit 1
below .

            Exhibit 1: Electronics and Recycling Average Factory 

                    Inmate Employment and Gross Margin 

                                                                       AVERAGE INMATE
                                       AVERAGE PROFIT MARGIN             EMPLOYMENT
               FACTORY NAME                                        (PER $1 MILLION IN SALES)
                                               FY 09-11                    FY 09-11
         ELECTRON ICS
        Danbury Cable, CT                        12%                          8
        Fa irton Cable, NJ                       -2%                          19
        Lompoc Cable, CA                         8%                           15
        Loretto Cable, PA                        -9%                          23
        Lexinqton Cable, KY                      12%                          26
        Marion Cable, IL                        -27%                          80
        Memphis Cable, TN                        12%                           9
        Phoenix Cable, AZ.                       7%                           18
        RECYCLING
        Atwater Recycl inq , CA                  -9%                          95
        Fort Dix Recycl inq, NJ                  23%                          59
        Lewisburq Recycl inq, PA                 52%                          47
        Leavenworth Recyclinq , KS               33%                          71
        Marianna Recyclinq, FL                   27%                          76
        Texarkana Recyclinq , TX                 -7%                          98
        Tucson Recycling, AZ.                   -20%                          92
       Source . FPI

      Am ong recycl ing facto ries, Lewisburg recycling was selected beca use it
had the high est average profit m a rgin for FYs 2009 t hro ugh 2011 but t he


         28 Gross margin was calculat ed as t he average gross profit div ided by t he avera ge

net sa les, an d represen t s the avera ge percentage of each sa les dollar that is cont r ibut ed to
the p rofi t of the f actory . For examp le a g ross ma rgi n of 50 percent m eans that f or every $ 1
in sa les, $0 .50 is contributed t o profit on averag e.



                                                 32 

lowest average inmate employment per $1 million dollars in sales. Tucson
was selected because it had the lowest average profit margin for FYs 2009
through 2011 but the third highest average inmate employment per
$1 million dollars in sales. For the electronics factories we selected only
cable factories for site visits so that we could compare and contrast factories
producing similar products.29 Among the electronics factories analyzed,
Loretto was selected because it had the lowest average profit margin for FYs
2009 through 2011 but the second highest average inmate employment per
$1 million dollars in sales among cable factories.30 Lexington cable was
selected because it had both the highest average profit margin and average
inmate employment per $1 million dollars in sales among cable factories.

Reliability of FPI Inmate Employment Data

        FPI provided us with inmate employment data for each factory from its
information system. We performed limited testing on this data to determine
if this computer generated data was sufficiently reliable for determining the
total number of inmates FPI had employed.

       To perform our assessment, we reviewed the internal controls over
inmate payroll and reporting, and compared SAP reported inmate
employment numbers to source documentation for judgmentally selected
sample of inmate employees at each of the four factories selected above
(Lexington, Lewisburg, Loretto, and Tucson). Each factory records all
inmate employees on the door check sheet. At the beginning of each shift,
FPI officials record the employees that are present for each shift as well as
any inmate call outs that may occur during the day. Inmates may be called
out for such things as education classes or medical appointments. At the
end of each day, the total hours worked and total calls out hours are tallied
on the door check sheets. The sheets are then verified by the factory
manager and sent to an inmate payroll clerk for entry into the Inmate
Payroll System (IPS). Once entered into IPS, the factory manager will verify
that the hours in IPS match the original door check sheets. Following
verification, the inmate hours are sent to FPI headquarters for payment. FPI
headquarters records the total hours worked from IPS as a lump sum payroll


       29
           Three non-cable Electronics business group factories were excluded from our site
selection analysis: McKean Plastics, Englewood Test Lab, and Sheridan Panels.
       30
           Marion cable factory was excluded from our site selection due to its lack of history
and losses that appeared to be related to startup costs from operations. Marion cable was
first opened in FY 2007, and had its first year of profitability in FY 2011. In FY 2011, Marion
cable’s profit margin was 25.65 percent. Additionally, FPI officials informed us that Otisville
cable was converted to manufacture solar panels, and was therefore excluded from site
selection.


                                              33                                                  

expense in SAP, and subsequently transfers monthly inmate payroll to each
institution for distribution into inmate accounts.

      Our testing compared the payroll data in IPS from a judgmentally
selected sample of 10 inmate employees for June and September 2010 and
2011 to the door check sheets. We found the sample data contained within
IPS matched the data recorded on the door check sheets. Additionally, we
compared the inmate employee data in IPS to the data provided by FPI from
the SAP system, and found that the data was sufficiently reliable for the
purposes of our audit.

       During our testing of the data we did identify one limitation of the
inmate employment data that was significant within the context of our audit.
FPI officials informed us that inmate employment data is reported to
headquarters on a quarterly basis, but the inmate employment data from
SAP provided to the OIG reported the number of inmate employees as of the
last day of each fiscal year. Therefore, FPI’s employment data does not
capture all inmates that may have worked for FPI from October 1 through
September 29 of each fiscal year. We compared inmate employment for
September 2010 and 2011 to inmate employment for June 2010 and 2011
at each of the four factories where we performed testing, and did not
identify any changes in inmate employment of greater than 1 percent.
Therefore, despite this data limitation, we did not identify any significant
variation in inmate employment over the tested pay periods that would lead
to an incorrect or unintentional conclusion on the number of inmates
employed by FPI.




                                    34                                         

                                                                        APPENDIX II

             FEDERAL BUREAU OF PRISONS'
            RESPONSE TO THE DRAFT REPORT


                                           u.s. OepOMOlen' or JUjI I«

                                          Federal Bureau of Pnsons




                                          September: 3 ,    2 01)




MEMORANDUM FOR RAYMOND J .   BEAUDI':T
                  ASSISTANT INSPECTOR GENERAL
                    POR AUDIT
                  OFFICE OF THE INSPECTOR GENERAL




FROM:
                  Chr;!.r>Q.-:.r., ,, -Ii
                  Dl.rector
                  Federal Bureau of Prisons

SUBJECf :         Response to the Ottice ot Inspec tor General's (OIG)
                  DRAFT Report:  Audit of the Manageroen~ of Fe deral
                  Prison InduB~rieB and Effor ts to Create Work
                 Opportunitl.es tor Federal Inmates
The Bureau of Prisone (BOP) appreciates the opportunity co respond
to the open recommendations trom the draft report entitled Audit of
the Management o f Fede r a l Prison Industries and E f f o rts to Create
Wo rk       rtunities tor Federal   In~te8.


please lind the Bureau's respons e to t he recommendations below,

Recommen.a,tion:1 : AdjUBt the performanct!'! metric for its job-sharing
initiative BO that it more direc tly quantifies PPI's efforts to
emp10y ~ore inmatea.

BOP ' s Response : To advance this obj e ctive, PPI has prov ided
guidance to the field, tightening its parameters on the definition
of part-time employment for purpooes of its job-sha ring inith,tiv8,




                                         35 

   with the ultimate gOill of l.ncreasing work opportun1t ieljl for inmates.
   This has been done through nationwide communi CAtionl.l with our field
   leadership and follow-up written guidance distributed
   electronically to all f ield l ocations. The F~I will reissue
   guidance at itljl upcoming management teleconference. Accordingly,
   we request that this recommendation be c l osed.

   aecommandat i on II Est~bliGh organization-wide or business group
   target.s for the job-sharing 1nit.iative. and reestablish perfortnaOce
   metrics for responsible officials' perfo~nce work plans to
   incentivize meeting thoae targets.

   BOP'. R••pon•• , As demonstrat.ed in t.he graph below, FFI continues
   t.o make excellent. progress with this initiative. This progress has
   been t.he result of continual emphasis on t.he importance of this
   initiative through nationwide video conferences, teleconferences,
   and t.he iljlljluance of writ.ten guidance. In addit.ion, this is tracked
   through the agency's Strat.egic Plan , as well au through quarterly
   and monthly reporting.



                   P.....nt ofP","l-time Inmates 





   Although no longer included in the performance work pl~n., the a.ata
   confirms that excellent progresS has been made in increasing the
   number of inmates participating in job-sharing by 20 percent, which
   exceeds the number tor F'i 201); this i s a 57 percent improvement: from
   the prior year. For these reasons , we r equest that t his
   recommendation be Closed.
                                       2

Percentages in the above bar chart are as follows. FY08: 3.9%, FY09:
5.5%, FY10: 3.8%, FYll: 12 .2%, FY12: 13.2%, and FY13 (third
quarter) : 20.7%.




                                           36 

ReeQmm.n~ti Qn 3 :      Finalize a pol1cy to replace its previous inmate
611'pl oyment goa l with one thclt is better aligned with the FPI 's current
operational and economic environment ,

BOP'a Response : We do not concur that changes to the inmate
employment goal should be made at this time. Specifically, by
capi ta lizing on its new repatriation and Prison I ndustry Enhancement
Certification Program authorities and implementation of employment
initiat i veo, inc luding job -sharing and hiring prioritization, FPI
believes it c an make signiti cant strides toward reaching its current
empl oyme nt goal , We have achieved thie goal in the put and do not
want to l ower our desired goal and expectations for the future.
Accordingly, we reque st that th is recommendation be c l osed.

Rec: omm.n~tiQn 4 : Establish internal control procedures to ensure
that it no longer considers for hire or employs alieDI who have
received a fi nal order of deportation, exclusion, or removal, when
doing so is prohibited by law, regulation , or policy .

BOP'S aasponl e: FP I is c urrently i n compliance with Program
StatementS120 .02, CHl, p4, 5(a) i a.nd2SCFR S345.lS1 a ) . Wehave
confi~ d tha t the only inmates working for FPI who have received
a final depor tation order are t hoee who qualify tor a policy
e xception, and canno t be remo ved from the U. S. because the deslgnated
country o t removal will not allow them t o return. FPI hal provided
the field with guidance on BOP/FPI po licy in Program Statement
8120.02, and intends to remind managers of this requirement during
the next management video conference. Additionally, this
i nforma t i on will be included i n t.he AlOnthly operational reports for
all fa ctories . Accordingly , we request that this recommendatioD be
c l osed.

It you have any questi one regarding this response, please contact
Sara M. Revell, Ass istant Director, Program Review Division , at
(202 ) 353-2302.




                                     ,





                                      37 

                                                              APPENDIX III

              OFFICE OF THE INSPECTOR GENERAL 

             ANALYSIS AND SUMMARY OF ACTIONS

               NECESSARY TO CLOSE THE REPORT


       The OIG provided a draft of this audit report to the Federal Bureau of
Prisons (BOP). BOP’s response is incorporated in Appendix II of this final
report. BOP did not concur with one of the OIG’s four recommendations and
did not explicitly state whether it concurred with the other three, resulting in
all four recommendations being unresolved. The following provides the
OIG’s analysis of the response and a summary of actions necessary to close
each recommendation.

Recommendation Number:

1.	   Unresolved. BOP did not state whether it concurred with our
      recommendation that FPI adjust the performance metric for its
      job-sharing initiative so that it more directly quantifies FPI’s efforts to
      employ more inmates. BOP stated in its response that to advance this
      initiative, FPI has communicated with and provided follow-up written
      guidance to all field locations, tightening its parameters on the
      definition of part-time employment for purposes of its job-sharing
      initiative, with the ultimate goal of increasing work opportunities for
      inmates. BOP also stated that FPI will reissue guidance at an
      upcoming management teleconference.

      BOP’s response provided little detail about the contents of FPI’s
      guidance or whether it addressed our concerns about FPI’s
      performance metric for the job-sharing initiative. Among those
      concerns, which are documented on pages 18-19 of this report, are
      our findings that the data collected from factories to quantify this
      initiative’s results were unreliable, and that FPI’s methodology for
      computing its results does not adequately account for half-time
      employees or for instances where inmate employee work hours are
      affected by call-outs.

      Accordingly, to resolve and close this recommendation, please provide
      evidence regarding the adjustment of the job-sharing performance
      metric, or an alternative corrective action to demonstrate that FPI has
      addressed the concerns documented in this report and adjusted the
      performance metric for its job-sharing initiative so that it more directly
      quantifies FPI’s efforts to employ more inmates.


                                       38                                           

2.   Unresolved . BOP did not state whether it concurred with our
     recommendation that FPI establish organization-wide or business
     group targets for the job-sharing initiative, and reestablish
     performance metrics for responsible officials ' performance work plans
     to incentive meeting those targets. BOP stated in its response that FPI
     continues to make excellent progress on its job-sharing initiative
     through nationwide telephone conferences and videoconferences; the
     issuance of written guidelines; and tracking the initiative through
     agency Strategic Plans and monthly and quarterly reporting. BOP's
     response also stated that although job-sharing performance measures
     and rating criteria are no longer included in responsib le officials'
     performance work plans, FPI's job sharing data confirms that excellent
     progress has been made in increasing the number of inmates
     participating in job-sharing. BOP provided the following exhibit
     showing that in the third quarter of FY 2013, approximately 2 1 percent
     of its inmate employees worked part-time, a 57 percent improvement
     from FY 20 12.


                           Pel"Cent ofPm·t-time Inmates

                                                                                                    n .. ..




                      ,,­                                                U:'"
                                                                             -
                                                                                      Ii'
                                                                                               I­


                      -
                     . _
                              ...>.-


                           ..... .. u


                    Source: BOP/ FPI
                                             ::::
                                             •••
                                        1-" ....
                                                        11
                                                        U"               .. .
                                                                                -

                                                                                      uu

                                                   g n' 09 III F'I' t D Cl n' 11 g .... . ,
                                                                                               I­

                                                                                                    .H.
                                                                                              a FYl:l1




     BOP's response appears to indicate that FPI is sti ll tracking its
     job-sharing progress using the data about part-time employees that
     our report found, on pages 18- 19, to be unreliable and insufficient to
     provide an accurate reflection of the job-sharing initiative's success .
     ( In our report and in this appendix, we use "part-time" and "half-time"
     interchangeably.) Specifical ly, FPI 's method of counting ha lf-time
     employees does not adequately distinguish between half-time jobs
     created through the job- sharing initiative, and half-time jobs created
     for other reasons, such as a factory that already operated half- shifts
     prior to the job-sharing initiative, full-time jobs that are converted to


                                                             39 

      half-time due to declining workload, and inmates whose work hours
      are half-time due to call-outs rather than as a result of job-sharing.
      For these reasons, we found that the job-sharing data FPI collected
      from September 2010 through March 2012 – data that appears to be
      reflected in the exhibit included in the BOP’s response – to be
      significantly inaccurate.

      In our judgment, an increase in the percentage of part-time inmate
      employees need not preclude FPI from establishing organization-wide
      or business group targets for the job-sharing initiative, or from
      maintaining performance targets and rating criteria for responsible
      officials. We believe that establishing organization-wide or business
      group targets and resuming the use of rating criteria for responsible
      officials would help incentivize continued job-sharing success and also
      enable FPI to better analyze its progress toward achieving
      performance expectations.

      To resolve and close this recommendation, please provide evidence
      that FPI has established organization-wide or business group targets
      for the job-sharing initiative, and reestablished performance metrics
      for responsible officials’ performance work plans to incentivize meeting
      those targets, or evidence of an alternative corrective action that
      sufficiently addresses this recommendation.

3.	   Unresolved. BOP did not concur with our recommendation to finalize
      a policy to replace FPI’s previous inmate employment goal with one
      that is better aligned with FPI’s current operational and economic
      environment. BOP stated in its response that changes to the inmate
      employment goal should not be made at this time because it believes
      that FPI can make significant strides toward reaching its current
      employment goal by capitalizing on its new repatriation and Prison
      Industry Enhancement Certification Program authorities and through
      the implementation of employment initiatives, including job-sharing
      and hiring prioritizations. BOP’s response also stated that FPI has
      achieved this goal in the past and does not want to lower its desired
      goal and expectations for the future.

      While we appreciate BOP’s desire to not want to lower its goals and
      expectations for FPI, BOP’s response provides only a general
      explanation of why it believes FPI can achieve its existing 25 percent
      employment goal in the future. As described on page 25 of this
      report, in order to have met its 25 percent employment goal in
      June 2012, FPI would have needed to provide work for over 44,000
      inmates, roughly three times as many inmates as FPI employed at that


                                     40                                          

      time and nearly double the highest employment level ever achieved by
      FPI. Moreover, using FPI’s current definition of “eligible BOP inmate
      population,” FPI has not met its 25 percent employment goal since
      1989, and as of March 2013, FPI employed just 8 percent of the
      inmate population housed in BOP facilities. We also note that BOP’s
      response appears to represent a departure from the sentiment FPI
      officials conveyed to the OIG during the course of our audit. Those
      officials told the OIG that due to the continued rise in the eligible
      inmate population, among other factors, the 25 percent employment
      goal is no longer representative of current conditions, and that they
      were developing a proposal for a new goal that would be more
      consistent with the Department’s commitment to performance-based
      management and reflective of FPI’s available resources and evolving
      operational and economic environment.

      To resolve and close this recommendation, please either provide a
      finalized policy to replace FPI’s previous inmate employment goal with
      one that is better aligned with FPI’s current operational and economic
      environment, or provide a detailed performance-based management
      plan for FPI that demonstrates how the 25 percent goal is attainable
      going forward.

4.	   Unresolved. BOP did not state whether it concurred with our
      recommendation that FPI establish internal control procedures to
      ensure that it no longer considers for hire or employs aliens who have
      received a final order of deportation, exclusion, or removal, when
      doing so is prohibited by law, regulation, or policy. BOP stated in its
      response that FPI is currently in compliance with Program Statement
      8120.02 and 28 C.F.R. § 345.35(a), and that it has confirmed that the
      only inmates working for FPI who have received a final deportation
      order are those who qualify for a policy exception, and cannot be
      removed from the U.S. because the designated country of removal will
      not allow them to return. BOP further stated that FPI has provided the
      field with guidance on BOP/FPI policy in Program Statement 8120.02,
      that FPI intends to remind managers of this requirement during the
      next management video conference, and that this information will be
      included in the monthly operational reports for all factories.

      BOP’s response did not provide enough information about the internal
      control procedures FPI has established to demonstrate that they are
      sufficient to ensure that FPI no longer hires or employs aliens in
      contravention of law, regulation, or policy.




                                     41                                         

To resolve and close this recommendation, please provide evidence
demonstrating that FPI established internal control procedures
sufficient to ensure that it no longer considers for hire or employs
aliens who have received a final order of deportation, exclusion, or
removal, when doing so is prohibited by law, regulation, or policy.




                               42                                      

